                            u.s. SMALL BUSINESS ADMINISTRATION
                                OFFICE OF INSPECTOR GENERAL
                                  INvESTIGATIONS DIVISION




DATE:           September 28, 2007

TO:             Frank J. Lalumiere
                Director
                Office of Surety Guarantees

FROM:           Daniel J. O'Rourke [FOIA ex. 6]
                Assistant Inspector Generltl
                 for Investigations

SUBJECT:        Advisory Memorandum (Report #7-32)
                [FOIAex.4]


During a recent investigation, the Office ofInspector General (OlG) identified problems
that occurred when a surety selected a replacement contractor to finish the contracts on
which the original contractor defaulted. Accordingly, we believe that the Small Business
Administration (SBA) should require sureties to exercise greater due diligence before
selecting replacement contractors.

BACKGROUND

[ex. 4]                an SBA preferred surety, bonded several contracts to be performed
by [ex. 4]                         SRA guaranteed those bonds. [ex. 4]defaulted on its
contracts, and [ex. 4] hired [FOIA ~x. 6]                                    as the
replacement contractor to finish two of [ex. 4] contracts at the  [ex. 4]      Washington.

[ex. 6]     obtained payments from [ex. 4] based on assertions that it had paid its
subcontractors and suppliers from past payments and would use the current payment to
pay its subcontractors and suppliers for current work. In fact, [ex. 6] took the
approximately $200,000 it was paid and never made any payments to subcontractors and
suppliers.

[ex. 6]       president used the funds received from [ex. 4]to pay down [ex. 6]           line
of credit and did not pay subcontractors or suppliers as required by its contract with leW
and as he certified he would. However, [ex. 6]           pre-existing line of credit required
[ex. 6]     to deposit all receivables in order to pay it down. Only then could [ex. 6]
draw against the line of credit to pay subcontractors and suppliers. Because [ex. 6]
had exhausted its credit line, it could not make such draws. [FOIA ex. 7E]
NO DUE DILIGENCE CHECKS WERE REQUIRED

Alfuough [ForA ex. 7E]                              an operational weakness was identified.
The investigation found that [ex. 4] did not conduct any due diligence on [ex. 6]      as the
replacement contractor. According to an [ex. 4] analyst, [ex. 4] .vas losing fuousands of
dollars per day on penalties for [ex. 4] non-performance and needed to hire a replacement
contractor to finish fue bondedjobs as soon as possible.       [ex. 6]   seemed the logical
choice, particularly because [ex.4] project superintendent had gone to work for
 [ex. 6]    and knew the requirements to complete fue job.

An SBA official confirmed fuat, once the original contractor defaulted, the surety had to
ensure the contract was completed or would have to pay penalties. Although SBA does
not require extra underwriting on the replacement contractor's qualifications or bonding
potential, the Agency's bond guaranty still covers the completion of the work, even by
the replacement contractor. SBA will pay 70% of the entire loss on fuese bonds,
induding any losses incurred as a result of the replacement contractor's default. Yet, it is
the individual surety's underwriting policy, and not SBA, which determines how much
research is done on the replacement contractor.

CHARACTER AND REPUTATION OF THE REPLACEMENT CONTRACTOR

The problems with [ex. 6]             were preventable because information was readily
available about prior performance and financial problems. According to an [ex. 4] staff
member, [ex. 4]began defaulting on contracts in August 2003, and on September 29,2003,
[ex. 4]notified [ex. 4] fuat it had no funds left to pay its subcontractors. At that time, [ex. 4]
tried working with [ex. 4] to complete fue contracts while [ex. 4] handled all offue finances.
Thus, [ex. 4] did not immediately seek a replacement contractor. When it became apparent
that [ex. 4] needed to find a replacement contractor to finalize fue work, [ex. 4] was
incurring daily monetary penalties from contract owners due to fue non-completion of the
contracts.

According to all [ex. 4] official, once [ex. 4] discovered fuat [ex. 6] had not paid its
subcontractors, [ex. 4] received notice from the Ohio Casualty Group fuat         [ex. 6]   did
the same thing on one of its contracts at the [ex. 6] (Washington)        [ex. 6]         fuus
costing Ohio Casualty $79,000.

Our investigation found that a civil judgment was levied against [ex. 6]     in [ex. 6]
                        Washington, on        [ex. 6]   in the amount of$20,755. In
addition, the Washington State Department of Licensing website, located at
https: / /fortress. wa. gov/lni/bbip/, shows that as ofJune 24, 2003, at least 10
companies had levied complaints against     [ex. 6]   with claims totaling $255,731.85.

If SBA had required [ex. 4] to conduct due diligence on replacement contractors, [ex. 4]
could have found fuese claims prior to hiring [ex. 6]       as a replacement on the [ex. 4]
contracts. [ex. 4] was not interviewed regarding fuis information to determine if this would
have made a difference to [ex. 4] in its hiring decision. However, it is information [ex. 4]



                                                2
usually uses in its decisions to bond contractors and is requested on the applications
contractors complete for bonding.

Moreover, SBA Standard Operating Procedure 50 45 2, The Surety Bond Guarantee
Program, Chapter 4, section 3, discusses the importance of the contractor's character and
reputation. It states that the company's character and reputation are deemed good if each
owner of 20 percent or more of its equity has good character. Good character is absent if
"A final civil judgment has been entered stating that the person committed a breach of
trust or has violated a law or regulation protecting the integrity of business transactions or
business relationship."

It is not immediately clear whether the judgment levied in      [ex. 6]   involved a breach
of trust or violation oflaw or regulation regarding business transactions. However, the
surety could have easily obtained the lawsuit and claim information within a few minutes
from the Washington State Department of Licensing website and the surety or its attorney
could then have followed up by reviewing the case. The lawsuits would also have been
discovered if the surety or its attorney had quickly researched the company on Westlaw
or LexislNexis. As seen above, there were several lawsuits and claims filed against
[ex. 6]      prior to [ex.4] September 29,2003, notice of default.

CONCLUSIONS

Researching the contractor through the relevant state government's licensing authority'S
website or public databases such as Westlaw or LexislNexis are ways to determine
whether a particular replacement contractor should be hired. In addition, asking the
replacement contractor specific questions and comparing those answers with the surety's
research would also determine whether a particular replacement contractor should be
hired.

Several existing SBA documents ask applicants questions concerning their character and
reputation. If sureties were required to ask replacement contractors some of these
questions, as outlined below, this would provide basic information, as well as serve as a
basis for criminal and/or civil prosecution in the event of contractor false statements. If
the replacement contractor disclosed outstanding judgments, liens, or a criminal history,
the surety could then determine whether the replacement contractor had the character,
reputation, and financial ability to complete the work.

We recognize that time is of the essence whenever a surety needs a replacement
contractor and that it may be unreasonable to expect the same level of detailed
infonnation as the original contractor would have provided. Thus, the following
recommendation is intended to balance the need for accountability and loss prevention
with the need for efficiency.
RECOMMENDATION

We recommend that the Director, Office of Surety Guarantees (OSG), require a surety to
perform one or the other of the following actions before hiring a replacement contractor:

       a. 	 Ensure that the prospective replacement contractor's work on a project is
            covered by a non-SBA guaranteed bond, or

       b. 	 Exercise due diligence when selecting a replacement contractor, as outlined in
            Appendix 1.

MANAGEMENT'S COMMENTS

We provided you with a draft report, which we discussed with you. You advised that you
will review processes to limit SBA's financial liability on replacement contractors,
including the two recommended alternatives, and will implement such a process .

. OIG ANALYSIS OF MANAGEMENT'S COMMENTS

Your comments are responsive to our recommendations. We appreciate the cooperation
of your office during this effort. If you have any questions, please feel free to contact me
on (202) 205- [FOIA ex. 2]




                                             4
                                        Appendix I

Due Diligence Steps to be Performed by a Surety

If a surety does not ensure that the replacement contractor's work on a project is covered
by a non-SBA gnaranteed bond, then the surety should request the following
information before selecting a replacement contractor.

    1. 	 Research the performance and legal records of a prospective replacement
         contractor through the relevant state licensing authority and/or the LexislNexis,
         Westlaw, or similar databases.

   2. 	 Ask the prospective replacement contractor the following before hiring it:

           a. 	 I do/do not have an SBA Loan. I did/did not have a previous SBA Loan.
                I have an SBA loan through the SBA Office in                  , with a
                balance of$           as of (date)   . Loan no. _ _ _ __

           b. 	 I am/am not an SBA Section 8(a) Qualified Contractor.

           c. 	 I havelhave not received a prior SBA bond guarantee, either under this
                trade name or another. Ifunder another trade name, specify trade name,
                city, state, and date.

           d. 	 Have you ever defaulted on any previous surety bonds (SBA or other)
                either under this contracting concern's trade name or any other concerns
                of which you have been a principal? If yes, provide detailed particulars
                including the name of the surety.

           e. 	 List all of the following for the principal, applicant, or any of its affiliates:

                     • 	 SBA loan applications pending;
                     • 	 Federal debt, including SBA loans, whether current, past due,
                         charged off, or paid in full.

           f. 	 List all principals, partners, officers, directors, and all holders of
                outstanding stock -100% of ownership must be shown.

           g. 	 Have you or any officer of your company ever been involved in
                bankruptcy or insolvency proceedings? If so, please provide the details.

           h. Are you or your business involved in any pending lawsuits? If yes, please
              provide the details.
       i. 	 Do you or your business have any outstanding judgments? If yes, please
            provide the details.

3. 	 Have the prospective replacement contractor fill out SBA Form 912 (Statement of
     Personal History), and ask if any of the principals are currently under
     investigation for any crimes.

4. 	 Ask the prospective replacement contractor to certify that the principal and the
     contractor are current on all federal, state and local taxes, including, but not
     limited to, income taxes, payroll taxes, real estate taxes and sales taxes.

5. 	 Ensure that the following admonition be on any document containing the above
     questions:

       "If you knowingly make a false statement to the SBA or to the surety in
       connection with an SBA-guaranteed bond, you can be fined up to $10,000
       and/or imprisoned for not more than five years under Title 18 USC 1001."




                                         6
